IN THE SUPREME COURT OF THE UNITED STATES
No. 20-1318
Vincent Shack
Petitioner
v.
NBC Universal Media, LLC,
1MG Worldwide, Inc.,
Ladies Professional Golf Association, and
Samsung Electronics America Inc.
Respondents

CERTIFICATE OF SERVICE

I, Vincent W. Shack, hereby 'certify that on this 13th day of May, I caused
three copies of the Reply to the Respondents' Objections to Petitioner's Petitioner for
Writ of Certiori to be served by first class mail on the following parties:

Paul K. Schrieffer, Esq
p ks@nk silo .c,om
P.K. Schrieffer LLP
100 N. Barranca Street
Suite 1100
West Covina, California 91791

Robert Wise, Esq.
Rob.Wise@bowmanandbrooke.com
Bowman and Brooke LLP
901 East Byrd Street
Suite 1650
Richmond, VA 23219

Robert B. Salley, Esq.
RSallev@tharpe-howell.com
Tharpe & Howell, LLP
15250 Ventura Boulevard
Ninth Floor
Sherman Oaks, California 91403

RECEIVED
MAY 2 1 2021
suF

0,

